<html>
<title> - NOMINATIONS OF ERIK P. CHRISTIAN AND MAURICE A. ROSS</title>
<body><pre>[Senate Hearing 107-72]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 107-72

          NOMINATIONS OF ERIK P. CHRISTIAN AND MAURICE A. ROSS

=======================================================================



                                HEARING

                               before the

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                                 ON THE

 NOMINATIONS OF ERIK P. CHRISTIAN AND MAURICE A. ROSS TO BE ASSOCIATE 
        JUDGES OF THE SUPERIOR COURT OF THE DISTRICT OF COLUMBIA


                               __________

                              MAY 22, 2001

                               __________

      Printed for the use of the Committee on Governmental Affairs


                  U.S. GOVERNMENT PRINTING OFFICE
73-394                     WASHINGTON : 2001

____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                   COMMITTEE ON GOVERNMENTAL AFFAIRS

                   FRED THOMPSON, Tennessee, Chairman
           JOSEPH I. LIEBERMAN, Connecticut, Ranking Democrat
TED STEVENS, Alaska                  CARL LEVIN, Michigan
SUSAN M. COLLINS, Maine              DANIEL K. AKAKA, Hawaii
GEORGE V. VOINOVICH, Ohio            RICHARD J. DURBIN, Illinois
PETE V. DOMENICI, New Mexico         ROBERT G. TORRICELLI, New Jersey
THAD COCHRAN, Mississippi            MAX CLELAND, Georgia
JUDD GREGG, New Hampshire            THOMAS R. CARPER, Delaware
ROBERT F. BENNETT, Utah              JEAN CARNAHAN, Missouri
             Hannah S. Sistare, Staff Director and Counsel
                       Johanna L. Hardy, Counsel
 Mason C. Alinger, Professional Staff Member, Oversight on Government 
  Management, Restructuring and the District of Columbia Subcommittee
     Joyce A. Rechtschaffen, Democratic Staff Director and Counsel
                  Cynthia R. Gooen, Democratic Counsel
         Jason M. Yanussi, Democratic Professional Staff Member
 Marianne Clifford Upton, Democratic Staff Director and Chief Counsel,
           Oversight on Government Management, Restructuring
               and the District of Columbia Subcommittee
                     Darla D. Cassell, Chief Clerk


                            C O N T E N T S

                                 ------                                
                                                                   Page

Opening statements:
    Senator Voinovich............................................     1

                               WITNESSES
                         Tuesday, May 22, 2001

Hon. Eleanor Holmes Norton, a Delegate in Congress from the 
  District of Columbia...........................................     1
Erik P. Christian to be an Associate Judge of the Superior Court 
  of the District of Columbia....................................     3
Maurice A. Ross to be an Associate Judge of the Superior Court of 
  the District of Columbia.......................................     4

                     Alphabetical List of Witnesses

Christian, Erik P.:
    Testimony....................................................     3
    Biographical and financial information with attachments......     9
Norton, Hon. Eleanor Holmes:
    Testimony....................................................     2
Ross, Maurice A.:
    Testimony....................................................     4
    Biographical and financial information with attachments......    91

 
          NOMINATIONS OF ERIK P. CHRISTIAN AND MAURICE A. ROSS

                              ----------                              


                         TUESDAY, MAY 22, 2001

                                       U.S. Senate,
                         Committee on Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:03 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. George 
Voinovich, presiding.
    Present: Senator Voinovich.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich [presiding]. The hearing will come to 
order. I would like to welcome our nominees, Erik Christian and 
Maurice Ross, both of whom have been nominated to serve as 
Associate Judges for the District of Columbia Superior Court, 
and I would like to welcome their families and friends, and 
thank their families in advance for the sacrifice that they are 
going to make in order for Mr. Christian and Mr. Ross to serve 
on the court, and I would also like to welcome Delegate Eleanor 
Holmes Norton. Congresswoman, very happy to have you here with 
us today.
    Let me state for the record that both of our nominees have 
undergone a very thorough screening process. They were 
recommended by the District's Judicial Nomination Commission, a 
group of distinguished individuals who submit to the President 
of the United States three names, and then the President 
selects one of those three names. Mr. Christian, Mr. Ross, you 
are the ones that the President has selected. Then, of course, 
you each went through an FBI background investigation, and then 
the President formally nominated you.
    Since the nominations were received, the Committee staff 
has conducted separate background checks and interviews with 
both of our nominees here this morning. I have also spent a 
great deal of time reviewing your qualifications, and I am 
pleased to be holding these hearings today. I am confident that 
the two of you are both going to be very fine judges.
    To present our nominees today, we are honored to have 
Delegate Norton to introduce you, and we are very glad to have 
you here this morning.

STATEMENT OF HON. ELEANOR HOLMES NORTON, A DELEGATE IN CONGRESS 
                 FROM THE DISTRICT OF COLUMBIA

    Ms. Norton. Thank you very much, Senator Voinovich, and may 
I just begin by thanking you for your extraordinary service to 
the District of Columbia. We have been very fortunate to have a 
former mayor of Cleveland as the Chair of our Committee here in 
the Senate. This morning, of course, it is my great honor to 
appear before you in another capacity, and that is to introduce 
two very able young lawyers who have been nominated by 
President Bush to serve on our Superior Court bench.
    Erik Christian is a native Washingtonian who comes from a 
family of educators here in the District. He is a Phi Beta 
Kappa graduate of Howard University. He attended Georgetown 
University Law Center. Mr. Christian clerked on the very court 
to which he has now been nominated, and he has had very 
extensive trial experience of the kind that suits him 
especially well to serve on this court. He has been an 
Assistant U.S. Attorney here in the District, prosecuting 
complex cases, including homicide cases. He rose to become a 
Deputy Chief in the U.S. Attorney's Office. He went on to 
become the second in command at the office of the U.S. Attorney 
in the Virgin Islands. Most recently, he has served our city as 
Deputy Mayor for Public Safety, and under his jurisdiction were 
the police department, the fire and emergency medical services, 
the Department of Corrections, and the Medical Examiner. His 
most recent position was as legal counselor to D.C. Mayor Tony 
Williams.
    I am pleased also to introduce Maurice Ross. Maurice Ross 
has had extensive civil and criminal litigation experience as 
well. His most recent assignment was as assistant counsel in 
the Justice Department's Office of Professional Responsibility. 
Before that, Mr. Ross was senior counsel with the Federal Home 
Loan Mortgage Corporation, otherwise known as Freddie Mac. He 
has had extensive civil and criminal experience in Federal and 
State courts, not only in the District of Columbia, but 
throughout the United States. Mr. Ross has been a Special 
Assistant to the Deputy Attorney General of the United States, 
and an Associate Deputy Attorney General. His legal career 
began in private practice at a large firm here, Shaw Pittman, 
where he began to get his litigation experience. Mr. Ross is a 
graduate, cum laude, from Yale College, and got his law degree 
from Harvard Law School. He has served as a member of the 
District Bar's Legal Ethics Committee, and he has been on the 
board of directors of the Greater Washington Urban League. The 
District of Columbia is very proud to present these two 
candidates for your consideration.
    Senator Voinovich. Thank you very much. I really appreciate 
your coming here today to introduce both nominees, and I think 
that their backgrounds are just outstanding. I wish everyone 
was as qualified. As part of the Committee's normal practice, I 
would like the nominees to stand and raise their right hand. Do 
you swear that the testimony that you will give the Committee 
today is the truth, the whole truth, so help you, God?
    Mr. Ross. I do.
    Mr. Christian. I do.
    Senator Voinovich. Please be seated. Let the record show 
that the nominees answered in the affirmative. Let me now 
welcome Erik Christian. We are pleased that you are here today, 
and I know it is a special day for your family. The special day 
will be when the Senate approves your appointments, but this is 
a big day in the beginning of this little venture up the 
ladder, and so we are very happy that you are here and you have 
members of your family and friends with you. Would you like to 
make an opening statement?

 TESTIMONY OF ERIK P. CHRISTIAN\1\ TO BE AN ASSOCIATE JUDGE OF 
         THE SUPERIOR COURT OF THE DISTRICT OF COLUMBIA

    Mr. Christian. Yes, thank you, Senator. Good morning. I 
would first like to introduce my family members. I introduced 
them earlier to you. However, I would like to introduce them to 
you and the Committee staff. My father, Charles Christian, is 
present with me today, along with my sister, Dr. Judy 
Christian, my mother, Dorothy Christian, and my brother, Gary 
Christian, and my daughter, Caitlin Erin Christian. They have 
provided me with support throughout my life, and are here today 
again to provide that same support.
---------------------------------------------------------------------------
    \1\ Biographical and financial information with attachments appear 
in the Appendix on page 9.
---------------------------------------------------------------------------
    Just as an aside, my parents are educators here in the 
District of Columbia. They are retired public school teachers 
and administrators, and just lived a couple of blocks away from 
the Capitol. They grew up together on the same street, near 
North Capital and I Streets, just in the shadow of the Capitol, 
and I would especially like to thank them for being with me 
throughout my life and here today. I also have a cousin here, 
Hallue Clark Wright, who is an employee with the Department of 
Justice in the area of civil rights. There are several friends 
and colleagues here with me today, Attorney Lola Ziadie, Ron 
Walutes, Guy Middleton, Harold Ognelodh, and the Corporation 
Counsel for the District of Columbia, Robert Rigsby, is present 
today, sir.
    This is indeed an honor and a privilege to have been 
nominated by President Bush to serve as an Associate Judge to 
the Superior Court of the District of Columbia. Again, I want 
to thank your Committee and your staff, who did diligent work 
in getting this hearing scheduled and yourself having this 
hearing scheduled. I also would like to thank the D.C. Judicial 
Nominations Commission and Mayor Anthony Williams for 
recommending me to the White House, and, of course, the 
President of the United States, for nominating me to this 
position.
    As you may know, Mayor Williams wanted to be here today. He 
sends his greetings. However, he is at a conference out in 
Nevada. Chief Judge Annice Wagner, whom I clerked for in the 
trial court, is unfortunately unable to make it this morning. 
She is sitting in an en banc argument in the D.C. Court of 
Appeals. However, she also sends her greetings. I would just 
like to follow in the tradition of my family, in the footsteps 
of those who I learned from, to serve ably on the court. I 
think I will serve in a proficient manner. As you know, I have 
basically served throughout the city in various public sector, 
public government agencies and in the U.S. Attorney's Office 
for approximately 10-11 years, and then as Deputy Mayor for 
Public Safety and Justice, and presently as legal counsel to 
the mayor.
    I think all those positions and being a native 
Washingtonian will serve me well on the bench, and I look 
forward to serving in a proficient manner. Thank you, sir.
    Senator Voinovich. Thank you. Mr. Ross, welcome.

TESTIMONY OF MAURICE A. ROSS\1\ TO BE AN ASSOCIATE JUDGE OF THE 
           SUPERIOR COURT OF THE DISTRICT OF COLUMBIA

    Mr. Ross. Good morning, Senator. I would like to introduce 
my family. First, my wife, Beverly, and my son, Jeffrey, who 
are behind me; my parents, Dr. and Mrs. Walter Ross; my oldest 
sibling, my sister, Margaret; and also with me this morning, 
Judge George Mitchell of the D.C. Superior Court, who has been 
a close family friend and mentor; my godfather, Dr. Roy 
Batiste; and also a close family friend, Ms. Georgina Brown, 
who is also here. I think I covered everyone who came in.
---------------------------------------------------------------------------
    \1\ Biographical and financial information with attachments appear 
in the Appendix on page 91.
---------------------------------------------------------------------------
    I would like to thank the Committee first of all for moving 
so expeditiously on our nominations. I would like to thank the 
staff. They walked us through the process very quickly; the 
President, for nominating me; the D.C. Judicial Nominations 
Commission. I am eager to serve and I am willing to answer any 
questions that the Committee may have this morning. Thank you.
    Senator Voinovich. Thank you. I would like to make clear to 
both of the nominees that I am here by myself this morning. 
Ordinarily, we have a couple more individuals that are on the 
Committee that are here, but we were here late last night and 
several of them were tied up. I want to make clear to you and 
your families that this is a very important procedure, and a 
lot of it is all the work that has gone before this hearing 
this morning. I think sometimes when we have these hearings and 
they are very short, people think, well, that was not much. But 
both of you know--you have gone through quite a bit in order to 
come here this morning. As I say, I know this is a very 
important day for your family and for your friends.
    There are three questions that I am required to ask of each 
of you, and I would like to read them to you and then have you 
respond. The first question is are you aware of anything in 
your background that might present a conflict of interest with 
the duties of the office to which you have been nominated? Mr. 
Christian.
    Mr. Christian. No, sir.
    Senator Voinovich. Mr. Ross.
    Mr. Ross. No, Senator.
    Senator Voinovich. Do you know of any reason, personal or 
otherwise, that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Mr. Christian. No, sir.
    Mr. Ross. No, Senator.
    Senator Voinovich. Do you know of any reason, personal or 
otherwise, that would in any way prevent you from serving the 
full term of the office to which you have been nominated?
    Mr. Christian. No, sir.
    Mr. Ross. No, Senator.
    Senator Voinovich. Those are the formal questions that we 
have before the Committee. I would like to give each of you an 
opportunity to answer this question I am interested in, and 
that is you are both relatively young men, at least from my 
perspective, and I would be interested, starting with you, Mr. 
Christian, why is it that you sought this nomination?
    Mr. Christian. Senator Voinovich, throughout my life I have 
tried to follow the words and wisdom of my family, my mother 
and father, sister, and brother. I followed my brother, 
attorney Gary Christian, into law school, and I followed his 
advice almost to the letter. I then clerked for Judge Annice 
Wagner, and began to see how society and the community all 
would come back to the Superior Court. Seeking this nomination 
will provide me with the opportunity to continue to contribute 
back to the community in which I was raised. It will allow me 
to continue to devote my life, my energy, to make this city a 
better place.
    As you know, I was Deputy Mayor for Public Safety, and I 
worked extensively in the community through Mayor Anthony 
Williams' strategic plans of building and sustaining healthy 
neighborhoods, making the government work. We had a point-by-
point strategic plan that is now underway, to bring this 
community back. I think, through that experience as his legal 
counsel, as well as now, with the opportunity to serve on the 
bench if confirmed, I will be able to provide that same 
devotion, that same caring, that same passion, to the citizens 
of the District of Columbia.
    Senator Voinovich. I am sure that the mayor is going to 
miss your help. I, as you know, am a good friend of the mayor's 
and try to be as supportive as we can; but, as I have 
emphasized to him very often, you are only as good as the team 
that you have around you, and I am sure that he has enjoyed the 
fact that you have been willing to serve him. When was the 
first thought that you had, that you someday would like to be a 
judge? Did this just come on, or have you ever had that thought 
before?
    Mr. Christian. Well, believe it or not, and I am not sure 
whether I shared this with anyone, but my father and mother had 
bought my brother and me a little Honda Civic, and we had 
driven down to a nearby car stereo place to get a stereo placed 
in the car, because we did not have a radio in the car, and my 
brother decided to take me down to Superior Court, just to 
watch the proceedings, and we could not have been older than 
16- to 18-years-old. So we walked down and sat in the Superior 
Court at that time, and at that point, it was just so 
fascinating.
    So that is when the first pearl came to me, and then 
actually being in the U.S. Attorney's Office, one of the finest 
offices in the District of Columbia, and being able to practice 
there for an extensive number of years and then to work as 
First Assistant in the Virgin Islands just brought that back 
and confirmed my desire to actually be on the bench, to 
continue to help shape society and our community.
    Senator Voinovich. Thank you very much. Mr. Ross.
    Mr. Ross. I would join in many of Mr. Christian's 
sentiments. My parents were government servants here in the 
city. My older brother is also a lawyer. He could not be here 
today because he is in Jamaica on business. But I have grown up 
in this city. I am committed to public service, and I thought 
that serving on the Superior Court would be an excellent way to 
continue in public service, to continue to grow as a lawyer and 
deal with some of the most complex and difficult issues, not 
just in the city, but in this country, and they all come 
through the front door of Superior Court.
    As to when it first occurred to me to consider being a 
judge, approximately 4 years ago, Gloria Johnson, the secretary 
to the late Chief Judge of the District Court, Judge Aubrey 
Robinson, for whom my sister clerked, mentioned that there was 
an opening for a magistrate judge and that I should consider 
applying, and she encouraged me to apply for that position and 
to talk to Judge Robinson about service on the court; and it 
was out of that meeting that I had my initial interest in 
seeking judicial office. Subsequently, I met many of the judges 
on Superior Court before whom I appeared. I had the opportunity 
to meet them off the bench, and I was convinced that it was 
just an outstanding opportunity, and that is when I decided to 
apply.
    Senator Voinovich. Well, as I say, I think it is very good 
that both of you have decided to make yourself available. This 
is not an easy life, and, as I say, your families are going to 
have some sacrifices. One point, and this is a concern that I 
have, and Senator DeWine, who happens to be on the 
Appropriations Committee that has the District, and then there 
are several members of the House, and that is the issue of the 
family and juvenile judges here in the District, and there has 
been some talk about creating a special family court slot here 
in the District. I am not sure that is going to happen, but one 
thing that we have been assured is that there is going to be a 
larger emphasis on individuals serving in that capacity.
    I would just bring it to your attention today. There is a 
real need in the District for much more attention to the family 
court, and, too often, I think judges have a tendency not to 
want to be part of that, because it does involve, in some 
instances, a little larger commitment in terms of one's 
emotions, because you really have to get into the whole 
situation in a family. I would just bring that to your 
attention today, in hopes that after you are on the bench, that 
you would think about maybe taking that on for a couple of 
years. It is very important today.
    One of the things that bothers me about the justice system 
is, too often, the people that go through it are treated not as 
human beings, or just as another number, and I think it is 
really important that, on the bench, you look at people as 
being in the image and likeness of God, and that they are human 
beings and they have problems, and that, particularly today in 
our society, we have some real problems in terms of families. I 
was governor of Ohio, and we really emphasized the importance 
of those family courts, where you have people that are really 
interested.
    They get to be familiar with the social service agencies. 
They take some extra time to find out about the individuals 
that are appearing before them. They are really able to make a 
real difference in their lives, and I just--I know sometimes 
that part of the law is not as appealing to some people as we 
would like it. But I would say that, as time goes on, I would 
hope that both of you would look into that, and perhaps you 
might take it upon yourself to serve in that capacity and to 
make a difference for the families that are here in the 
District. I would like to again thank you for being here today, 
and hopefully we will move this along. I think we are supposed 
to have a markup tomorrow, so hopefully that will be done, and 
then will go over on the calendar, and then we will try and get 
you up as soon as possible.
    Again, thank you for your willingness to serve the 
District.
    The Committee is adjourned.
    [Whereupon, at 9:23 a.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T3394.001

[GRAPHIC] [TIFF OMITTED] T3394.002

[GRAPHIC] [TIFF OMITTED] T3394.003

[GRAPHIC] [TIFF OMITTED] T3394.004

[GRAPHIC] [TIFF OMITTED] T3394.005

[GRAPHIC] [TIFF OMITTED] T3394.006

[GRAPHIC] [TIFF OMITTED] T3394.007

[GRAPHIC] [TIFF OMITTED] T3394.008

[GRAPHIC] [TIFF OMITTED] T3394.009

[GRAPHIC] [TIFF OMITTED] T3394.010

[GRAPHIC] [TIFF OMITTED] T3394.011

[GRAPHIC] [TIFF OMITTED] T3394.012

[GRAPHIC] [TIFF OMITTED] T3394.013

[GRAPHIC] [TIFF OMITTED] T3394.014

[GRAPHIC] [TIFF OMITTED] T3394.015

[GRAPHIC] [TIFF OMITTED] T3394.016

[GRAPHIC] [TIFF OMITTED] T3394.017

[GRAPHIC] [TIFF OMITTED] T3394.018

[GRAPHIC] [TIFF OMITTED] T3394.019

[GRAPHIC] [TIFF OMITTED] T3394.020

[GRAPHIC] [TIFF OMITTED] T3394.021

[GRAPHIC] [TIFF OMITTED] T3394.022

[GRAPHIC] [TIFF OMITTED] T3394.023

[GRAPHIC] [TIFF OMITTED] T3394.024

[GRAPHIC] [TIFF OMITTED] T3394.025

[GRAPHIC] [TIFF OMITTED] T3394.026

[GRAPHIC] [TIFF OMITTED] T3394.027

[GRAPHIC] [TIFF OMITTED] T3394.028

[GRAPHIC] [TIFF OMITTED] T3394.029

[GRAPHIC] [TIFF OMITTED] T3394.030

[GRAPHIC] [TIFF OMITTED] T3394.031

[GRAPHIC] [TIFF OMITTED] T3394.032

[GRAPHIC] [TIFF OMITTED] T3394.033

[GRAPHIC] [TIFF OMITTED] T3394.034

[GRAPHIC] [TIFF OMITTED] T3394.035

[GRAPHIC] [TIFF OMITTED] T3394.036

[GRAPHIC] [TIFF OMITTED] T3394.037

[GRAPHIC] [TIFF OMITTED] T3394.038

[GRAPHIC] [TIFF OMITTED] T3394.039

[GRAPHIC] [TIFF OMITTED] T3394.040

[GRAPHIC] [TIFF OMITTED] T3394.041

[GRAPHIC] [TIFF OMITTED] T3394.042

[GRAPHIC] [TIFF OMITTED] T3394.043

[GRAPHIC] [TIFF OMITTED] T3394.044

[GRAPHIC] [TIFF OMITTED] T3394.045

[GRAPHIC] [TIFF OMITTED] T3394.046

[GRAPHIC] [TIFF OMITTED] T3394.047

[GRAPHIC] [TIFF OMITTED] T3394.048

[GRAPHIC] [TIFF OMITTED] T3394.049

[GRAPHIC] [TIFF OMITTED] T3394.050

[GRAPHIC] [TIFF OMITTED] T3394.051

[GRAPHIC] [TIFF OMITTED] T3394.052

[GRAPHIC] [TIFF OMITTED] T3394.053

[GRAPHIC] [TIFF OMITTED] T3394.054

[GRAPHIC] [TIFF OMITTED] T3394.055

[GRAPHIC] [TIFF OMITTED] T3394.056

[GRAPHIC] [TIFF OMITTED] T3394.057

[GRAPHIC] [TIFF OMITTED] T3394.058

[GRAPHIC] [TIFF OMITTED] T3394.059

[GRAPHIC] [TIFF OMITTED] T3394.060

[GRAPHIC] [TIFF OMITTED] T3394.061

[GRAPHIC] [TIFF OMITTED] T3394.062

[GRAPHIC] [TIFF OMITTED] T3394.063

[GRAPHIC] [TIFF OMITTED] T3394.064

[GRAPHIC] [TIFF OMITTED] T3394.065

[GRAPHIC] [TIFF OMITTED] T3394.066

[GRAPHIC] [TIFF OMITTED] T3394.067

[GRAPHIC] [TIFF OMITTED] T3394.068

[GRAPHIC] [TIFF OMITTED] T3394.069

[GRAPHIC] [TIFF OMITTED] T3394.070

[GRAPHIC] [TIFF OMITTED] T3394.071

[GRAPHIC] [TIFF OMITTED] T3394.072

[GRAPHIC] [TIFF OMITTED] T3394.073

[GRAPHIC] [TIFF OMITTED] T3394.074

[GRAPHIC] [TIFF OMITTED] T3394.075

[GRAPHIC] [TIFF OMITTED] T3394.076

[GRAPHIC] [TIFF OMITTED] T3394.077

[GRAPHIC] [TIFF OMITTED] T3394.078

[GRAPHIC] [TIFF OMITTED] T3394.079

[GRAPHIC] [TIFF OMITTED] T3394.080

[GRAPHIC] [TIFF OMITTED] T3394.081

[GRAPHIC] [TIFF OMITTED] T3394.082

[GRAPHIC] [TIFF OMITTED] T3394.083

[GRAPHIC] [TIFF OMITTED] T3394.084

[GRAPHIC] [TIFF OMITTED] T3394.085

[GRAPHIC] [TIFF OMITTED] T3394.086

[GRAPHIC] [TIFF OMITTED] T3394.087

[GRAPHIC] [TIFF OMITTED] T3394.088

[GRAPHIC] [TIFF OMITTED] T3394.089

[GRAPHIC] [TIFF OMITTED] T3394.090

[GRAPHIC] [TIFF OMITTED] T3394.091

[GRAPHIC] [TIFF OMITTED] T3394.092

[GRAPHIC] [TIFF OMITTED] T3394.093

[GRAPHIC] [TIFF OMITTED] T3394.094

[GRAPHIC] [TIFF OMITTED] T3394.095

[GRAPHIC] [TIFF OMITTED] T3394.096

[GRAPHIC] [TIFF OMITTED] T3394.097

[GRAPHIC] [TIFF OMITTED] T3394.098

[GRAPHIC] [TIFF OMITTED] T3394.099

[GRAPHIC] [TIFF OMITTED] T3394.100

[GRAPHIC] [TIFF OMITTED] T3394.101

[GRAPHIC] [TIFF OMITTED] T3394.102

[GRAPHIC] [TIFF OMITTED] T3394.103

[GRAPHIC] [TIFF OMITTED] T3394.104

[GRAPHIC] [TIFF OMITTED] T3394.105

[GRAPHIC] [TIFF OMITTED] T3394.106

[GRAPHIC] [TIFF OMITTED] T3394.107

[GRAPHIC] [TIFF OMITTED] T3394.108

[GRAPHIC] [TIFF OMITTED] T3394.109

[GRAPHIC] [TIFF OMITTED] T3394.110

[GRAPHIC] [TIFF OMITTED] T3394.111

[GRAPHIC] [TIFF OMITTED] T3394.112

[GRAPHIC] [TIFF OMITTED] T3394.113

[GRAPHIC] [TIFF OMITTED] T3394.114

[GRAPHIC] [TIFF OMITTED] T3394.115

[GRAPHIC] [TIFF OMITTED] T3394.116

[GRAPHIC] [TIFF OMITTED] T3394.117

[GRAPHIC] [TIFF OMITTED] T3394.118

[GRAPHIC] [TIFF OMITTED] T3394.119

[GRAPHIC] [TIFF OMITTED] T3394.120

[GRAPHIC] [TIFF OMITTED] T3394.121

[GRAPHIC] [TIFF OMITTED] T3394.122

[GRAPHIC] [TIFF OMITTED] T3394.123

[GRAPHIC] [TIFF OMITTED] T3394.124

[GRAPHIC] [TIFF OMITTED] T3394.125

[GRAPHIC] [TIFF OMITTED] T3394.126

[GRAPHIC] [TIFF OMITTED] T3394.127

[GRAPHIC] [TIFF OMITTED] T3394.128

[GRAPHIC] [TIFF OMITTED] T3394.129

[GRAPHIC] [TIFF OMITTED] T3394.130

[GRAPHIC] [TIFF OMITTED] T3394.131

[GRAPHIC] [TIFF OMITTED] T3394.132

[GRAPHIC] [TIFF OMITTED] T3394.133

[GRAPHIC] [TIFF OMITTED] T3394.134

[GRAPHIC] [TIFF OMITTED] T3394.135

[GRAPHIC] [TIFF OMITTED] T3394.136

[GRAPHIC] [TIFF OMITTED] T3394.137

[GRAPHIC] [TIFF OMITTED] T3394.138

[GRAPHIC] [TIFF OMITTED] T3394.139


</pre></body></html>
